Alliant Cashback Visa® Signature Card Disclosure
Interest Rates and Interest Charges
Annual Percentage Rate (APR)
for Purchases

12.24% to 22.24% based on your creditworthiness. This APR will vary with
the market based on the Prime Rate.

APR for Balance Transfers

12.24% to 22.24% based on your creditworthiness. This APR will vary with

APR for Cash Advances

20.24%-24.24% This APR will vary with the market based on the Prime Rate.

Penalty APR and
When it Applies

25.24% This APR will vary with the market based on the Prime Rate. This APR may be
applied to your account if you make a late payment; make a payment that is returned;
or do any of the above on another account that you have with us.
How Long Will the Penalty APR Apply? If your APR(s) is increased for the reason
stated above, the Penalty APR will apply until you make six consecutive minimum
payments when due.

How to Avoid Paying Interest
on Purchases

To avoid an additional interest charge on the balance of purchases and balance
transfers, you must pay the entire balance on the billing statement by the payment
due date of that statement or 25 days from the statement closing date listed on
that statement, whichever is longer. You will be charged interest on cash advances
beginning on the transaction date.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore

the market based on the Prime Rate.

Fees
Annual Fee

Waived for the first year, $99 thereafter

Transaction Fees
• Foreign Transaction
• Balance Transfer
• Cash Advance

• None.
•3
 % of the amount of each transfer.
•E
 ither $10 or 3% of the amount of each cash advance, whichever is greater.

Penalty Fees
• Late Payment
• Return Payment
• Over Limit

• Up to $27.
• Up to $27.
• None.

The information about the costs of the card described in this disclosure is accurate as of July 29, 2020. This information may
have changed after that date. To find out what may have changed, call us at 800-328-1935 or write to us at Alliant Credit Union,
11545 W. Touhy Avenue, Chicago, IL 60666.
How Alliant Calculates Your Balance: Alliant uses a method called Average Daily Balance, which includes new purchases,
cash advances, and balance transfers. See the Finance Charges section in the Alliant Cashback Visa Signature Card
Agreement for details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in the Billing
Rights section of the Alliant Cashback Visa Signature Card Agreement.
Your Annual Percentage Rate (APR) may vary quarterly and is based on the Prime Rate. Your APR is determined by adding
a margin of: 8.99%-18.99% on purchases and balance transfers, 16.99%-20.99% on cash advances, and 21.99% on Penalty
APR to the Prime Rate for the Alliant Cashback Visa Signature Card. The Prime Rate Index used to determine your APR is
the highest rate published in The Wall Street Journal during the last business day of the previous calendar quarter (March,
June, September and December), and changes are effective as of the first day of your next billing cycle. Any increase in the
prime rate may increase your interest and minimum payment. (See the Alliant Cashback Visa Signature Card Agreement for
complete details.)
Introductory rate and incentive offers, including cash back, are not available to those members who had an
outstanding balance on a closed Alliant Visa credit card account and/or had an Alliant Visa credit card within the last
six months. If you are in an introductory rate promotion period, you are not eligible to transfer Visa accounts until the
introductory rate promotion has expired.
ALLIANT CASHBACK VISA® SIGNATURE CARD PROGRAM SUMMARY
Alliant Cashback Visa Signature Card Agreement Summary: Your APR is based on meeting Alliant Credit Union’s criteria
for creditworthiness. Alliant will review your credit and employment history and any other information permitted by law to
process your application. The credit line on this account will be determined after a review of your application by Alliant and
will be based on various factors, including income. The minimum approved credit line is $10,000. Alliant maintains the right
to not open this account if: a) the information provided is incomplete, inaccurate or cannot be verified, or if you do not meet
Alliant’s standards for creditworthiness; b) your name and/or mailing address on the credit application have been altered; c)
the income you reported on the application is insufficient to support the opening of this account; or d) you do not meet Alliant
membership eligibility requirements. You have the right to review your credit history by contacting the credit
reporting agencies.
Change in APRs, Fees and Other Terms: Alliant may change the APRs, fees and other terms of your account at any time
in accordance with applicable law, the Alliant Cashback Visa Signature Card Agreement and the Alliant Cashback Visa
Signature Card Program Terms & Conditions (Program) available at www.alliantcreditunion.org/bank/visa-signature-card.
P390.1-R07/20

Factors we may consider for determining whether and how to change your terms include, but are not limited to, a late
payment or an extension of credit that exceeds the credit limit, the frequency and severity of defaults and other indications
of risk on accounts with Alliant Credit Union and other creditors. To the extent allowed by law, the new terms will affect all
outstanding balances. If we increase your APRs for any reason other than an increase in the Prime Rate, the new APRs will
apply only to new transactions you make after we notify you of the change in writing.
Annual Fee: Your annual fee for the card is $99; the first year’s fee is waived. The fee will be charged to your card annually on
the 3rd business day of the month following your anniversary date. For example, if your application is approved on April 15,
2019, regardless of activation or first use, your annual fee will be charged on the 3rd business day in May starting 2020. You
will incur the annual fee even if you don’t have a balance. The annual fee is subject to change; you will be notified of a rate
increase as required by applicable law.
Minimum Payments: The minimum monthly payment is 3% of your balance, or $25, whichever is greater, plus the amount of
any prior minimum payments that you have not made. See the Alliant Cashback Visa Signature Card Agreement for complete
details. Alliant will also add any past due amount to your minimum payment. If your account charges off, the entire balance is
due immediately.
Transferability: This offer is nontransferable and is void to residents of GU, PR, VI and all other U.S. dependent areas.
Alliant Cashback Visa Signature Card Program Terms and Conditions Summary: Eligible Alliant Cashback Visa Signature
accounts earn 2.5% cash back on qualifying personal, family, or household purpose purchases, minus returns, the cardholder
charges to his/her eligible Alliant Cashback Visa Signature Card as provided for in the Program rules. Cash back will be
awarded on eligible purchases up to $10,000 spend per billing cycle. Cash back is not eligible on Finance Charges, fees, cash
advances (including purchase of crypto currency and foreign currency), convenience checks, Debt Protection charges, PINbased purchases, payment of existing card balances, balance transfers, ATM transactions, Interlink-processed transactions,
purchases of and any fees paid towards gift cards, pre-paid cards, re-loadable cards, or payments made for payment
instruments that can readily be converted to cash (for example, travelers’ cheques, money orders, wire transfers, lottery
tickets, casino gaming chips, off-track betting, wagers) or impermissible purchases such as purchases made for business
purposes. Cash back in this Program may not be used with any other offer, promotion or discount; cannot be earned from,
transferred to or combined with any other member’s credit card or debit card account(s) points for redemption; and cannot
be used to satisfy any minimum monthly payment obligation on the cardholder’s account. Cash back can be redeemed at a
minimum of $50 per redemption transaction.
Forfeiture of cash back rewards. If for any reason your account is closed, including but not limited to moving to another
Alliant credit card, you will lose your unredeemed cash back balance immediately. We reserve the right to disqualify any
accountholder from participation in this rewards Program in the event of fraud, abuse of Program privileges, or violation of
the Terms and Conditions as determined by the sole judgment of Alliant Credit Union. Such termination may result in the
forfeiture of any accumulated cash back rewards.
Accrual and Expiration of Cashback Reward: Cash back will accrue over five calendar years and will expire on a rolling,
first-in–first-out, annual basis; cash back earned in a calendar year will expire in December of the fourth calendar year
following the year it was earned. For example, any unredeemed cash back that you earned in 2016 will expire on your
December 2020 statement closing date; unredeemed cash back earned in 2017 will expire on your December 2021
statement closing date, etc.
Please refer to the Alliant Cashback Visa Signature Card Program Terms & Conditions at
alliantcreditunion.org/bank/visa-signature-card for complete details.
Military Lending Act (MLA): Important Information for Covered Borrowers under the Military Lending Act, Effective October
3, 2017 – Federal law provides important protections to members of the Armed Forces and their dependents relating to
extensions of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her
dependent may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit
transaction or account: The costs associated with credit insurance premiums; fees for ancillary products sold in connection
with the credit transaction; any application fee charged (other than certain application fees for specified credit transactions
or accounts); and any participation fee charged (other than certain participation fees for a credit card account). To hear this
Military Lending Act disclosure and the payment obligations thereunder, call toll free at 1-844-228-3303.
California Residents: Applicants: 1) may, after credit approval, use the credit card account up to its credit limit; 2) may be
liable for amounts extended under the plan to any joint applicant. As required by law, you are hereby notified that a negative
credit report reflecting on your credit record may be submitted to a credit reporting agency if you fail to fulfill the terms of your
credit obligations. Married applicants may apply for credit separately.
New York and Vermont Residents: Alliant Credit Union may obtain your credit reports, for any legitimate purpose associated
with the account or the application or request for an account, including but not limited to reviewing, modifying, renewing
and collecting on your account. On your request, you will be informed if such a report was ordered. If so, you will be given
the name and address of the consumer reporting agency furnishing the report. New York residents may contact the New York
State Department of Financial Services by telephone or visit its website for free information on comparative credit card rates,
fees and grace periods. New York State Department of Financial Services: 1-877-226-5697 or http://www.dfs.ny.gov.
Ohio Residents: Ohio anti-discrimination laws require creditors to make credit equally available to all creditworthy members
and that credit reporting agencies maintain separate credit histories on individuals upon request. The Ohio Civil Rights
Commission administers these laws.
Massachusetts Residents: You have the right to prohibit the use of information about you contained in your file with any
consumer reporting agency in connection with any credit transactions that you have not initiated. You can exercise this right
by contacting consumer reporting agencies through their toll-free notification systems established for this purpose.
Married Wisconsin Residents: Wisconsin law provides that no agreement, court order or individual statement applying to
marital property will adversely affect a creditor’s interest unless prior to the time credit is granted, the creditor is furnished with
a copy of the agreement, statement or court order, or has actual knowledge of the provision.

Visa is a registered trademark of Visa International Service Association.

P390.1-R07/20

